                             FRESNO UNIFIED SCHOOL DISTRICT
                                   2309 TULARE STREET
                              FRESNO, CALIFORNIA 93721-2287

                    NATIONAL SCIENCE FOUNDATION AWARD NUMBER
                                   ESR-9452988

                                   FINANCIAL AUDIT OF
                                FINANCIAL SCHEDULES AND
                             INDEPENDENT AUDITORS’ REPORTS

                 FOR THE PERIOD SEPTEMBER 1, 1995, TO AUGUST 31, 2000




This audit was performed by:

Cotton & Company LLP
Auditors · Advisors
333 North Fairfax Street
Suite 401
Alexandria, Virginia 22314
              XXXXXXXXXXXX
             XXXXXXXXXXXXXX




XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXX
                                                         Table of Contents

                                                                                                                                                     Page

Executive Summary:
  Background .....................................................................................................................................     1
  Audit Objectives, Scope, and Methodology ....................................................................................                        2
  Summary of Audit Results ...............................................................................................................             2
  Exit Conference................................................................................................................................      5

Findings and Recommendations:
  Independent Auditors’ Report on Financial Schedules ...................................................................                              6
  Independent Auditors’ Report on Compliance with Laws and Regulations and
       Internal Control over Financial Reporting ..............................................................................                        8

Financial Schedules and Supplemental Information:
  Schedule A Schedule of Award Costs ..........................................................................................                       21
  Schedule B Schedule of Questioned Costs ...................................................................................                         22
  Schedule C Schedule of Cost Sharing...........................................................................................                      24
  Notes to Schedule C ........................................................................................................................        25
  Schedule D Summary Schedule of Awards Audited and Audit Results .......................................                                             27
  Notes to Financial Schedules ...........................................................................................................            28

Appendix A: Awardee’s Comments to Report
EXECUTIVE SUMMARY
BACKGROUND


We audited the funds awarded by the National Science Foundation (NSF) to the Fresno Unified
School District (FUSD) under Cooperative Agreement No. ESR-9452988 for the period
September 1, 1995, to August 31, 2000. FUSD, as a federal awardee, is required to follow the
cost principles specified in Office of Management and Budget (OMB) Circular A-87, Cost
Principles for State, Local, and Indian Tribal Governments, and federal administrative
requirements contained in OMB Circular A-102, Grants and Cooperative Agreements with State
and Local Governments. In addition, as a NSF awardee, FUSD is required to follow the
provisions for financial management systems and cost sharing in OMB Circular A-110, Uniform
Administrative Requirements for Grants and Agreements with Institutions of Higher Education,
Hospitals, and Other Non-Profit Organizations.

FUSD is California’s fourth largest school district with approximately 88 schools, 9,200
employees, 79,000 students, and a $600 million annual budget. It received more than $72
million in federal funds in the fiscal year ending June 30, 2000.

NSF awarded Cooperative Agreement No. ESR-9452988 to FUSD on September 1, 1995, in the
amount of $15 million and included a $12,229,578 cost-share requirement. FUSD claimed $15
million of NSF funding and $17,538,877 in cost sharing. The agreement expired on August 31,
2000.

The agreement was awarded under NSF Program Announcement No. 93-67, Urban Systemic
Initiatives (USI) in Science, Mathematics and Technology Education: A New Paradigm for
Urban Education. USI’s mission is to implement a district-wide, comprehensive, systemic
reform project in science and mathematics. The overall purpose of the USI program is to
improve the scientific and mathematical literacy and achievement of all students; provide the
mathematics and science fundamentals that will permit all students to participate fully in a
technological society; and to enable a significantly greater number of students to pursue careers
in mathematics, science, engineering, and technology.

The specific objective of the FUSD project is to stimulate dramatic improvement in the quality
of the K-12 Science, Mathematics and Technology (SMT) instructional program, access to such
programs, and student achievement. In accomplishing this objective, USI contributes to the
quality of the national SMT workforce, the number and quality of students succeeding in SMT
careers, and, over time, the general scientific literacy of the United States citizenry.




                                               1
AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of our audit engagement were to:

1. Determine if FUSD's Schedule of Award Costs presents fairly, in all material respects, costs
   claimed on the Federal Cash Transaction Reports (FCTR) – Federal Share of Net
   Disbursements, and if costs claimed, including cost sharing, are in conformity with NSF
   award terms and conditions.

2. Identify matters concerning instances of noncompliance with laws, regulations, and
   provisions of the award agreements pertaining to NSF awards and weaknesses in FUSD's
   internal control over financial reporting that could have a direct and material effect on the
   Schedule of Award Costs and FUSD’s ability to properly administer, account for, and
   monitor its NSF awards.

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America, Government Auditing Standards, as revised, issued by the Comptroller
General of the United States, and the National Science Foundation Audit Guide, September
1996, as applicable. Those standards and the National Science Foundation Audit Guide require
that we plan and perform the audit to obtain reasonable assurance about whether amounts
claimed to NSF as presented in the Schedule of Award Costs (Schedule A), are free of material
misstatements. An audit includes examining, on a test basis, evidence supporting the amounts
and disclosures in the Schedule of Award Costs. An audit also includes assessing the accounting
principles used and significant estimates made by FUSD, as well as evaluating the overall
financial schedule presentation. We believe that our audit provides a reasonable basis for our
opinion.


SUMMARY OF AUDIT RESULTS

An audit was performed on the costs claimed on financial reports submitted to the National
Science Foundation (NSF) as well as the cost sharing provided by FUSD on Cooperative
Agreement No. ESR-9452988. These costs are shown in the Schedule of Award Costs
(Schedule A) and are summarized as follows:

                      Source of                                                  Questioned
Award No.              Funding             Budget           Claimed Costs           Costs
ESR-9452988        NSF Funding           $15,000,000        $15,000,000            $220,924
                   Cost Sharing           12,229,578         17,538,877           6,637,283
                   Total Project         $27,229,578        $32,538,877          $6,858,207




                                               2
Except for the questioned costs described below, we determined that the costs claimed by FUSD
for the NSF funded award expenditures appear fairly stated and are allowable, allocable, and
reasonable. However, we had to perform many alternative audit procedures, because payroll-
related expenses amounting to $5.1 million were not documented in accordance with federal cost
principles and NSF award terms and conditions. Also, $6.8 million (46 percent) of the $15
million in total claimed NSF-funded costs were questioned primarily because FUSD could not
readily identify in its accounting records or provide adequate documentation evidencing that it
had met its $12 million cost share obligation. In fact, to prepare for the audit, FUSD had to
manually extract and reconstruct data, and prepare schedules to support its cost-sharing claims.

NSF funded $15 million (55 percent) of the total budgeted projects costs, and FUSD was to
provide cost share for the remaining $12 million (45 percent). FUSD claimed to have cost-
shared $17.5 million, but we found that $1.3 million of salary and wages were already included
in the cost pool of FUSD’s indirect cost rate; $10.1 million was for unallowable building
upgrades which were not supported by accounting records and were based on estimates; and $6.1
million was for other unsupported expenditures, such as textbooks, library books, and other
direct costs, which were not supported by accounting records and were based on estimates.
Supporting documents consisted of various types of worksheets and memorandums assembled
by FUSD, some of which were only handwritten papers. No documentation explained the
relationship of the costs claimed to the NSF program objectives.

Because of FUSD’s failure to provide its portion of the total project costs in cost share, $6.6
million of the direct NSF funding was questioned. See Schedule B for the computation of
questioned award costs resulting from FUSD’s cost sharing shortfall. An additional $0.2 million
of indirect costs was questioned, because FUSD did not use the award-specified 5 percent
indirect cost rate in all years and applied the rates used to total direct costs, including participant
support costs which should have been excluded.

FUSD had a number of material control deficiencies that caused these questioned costs. In
general, FUSD’s systems of internal controls were not adequate to properly administer, account
for, and monitor its NSF award in compliance with NSF and federal requirements, in the areas
related to payroll, cost share, participant support, and indirect costs. Specifically:

       •       FUSD did not comply with a number of key federal and/or NSF award
               requirements, including requirements for properly certified employee time and
               labor effort reports for $5.1 million claimed in salary and fringe benefit costs.
               FUSD representatives did not realize that NSF awards were subject to timesheet
               requirements under OMB Circular A-87. No costs were questioned, because
               alternative audit procedures were used to verify that the labor costs claimed were
               allowable and allocable to the NSF award.




                                                  3
       •       FUSD lacked a system to properly identify, account for, monitor, and report cost
               sharing, resulting in FUSD submitting only 2 of the 5 required cost share
               certifications to NSF, claiming $17.5 million in inaccurate, unsupported, and/or
               unallowable costs, and failing to meet the $12.2 million cost sharing requirements
               of the award. FUSD’s program personnel failed to notify the Accounting
               Department of the NSF award’s cost sharing requirements.

       •       FUSD did not track and monitor the use of $3.5 million claimed in participant
               support funds, (23 percent of total claimed costs) which was critical to ensure that
               those funds were not used for other categories of expense. FUSD’s accounting
               system did not provide for proper recording and identification of participant
               support costs incurred under the award in accordance with federal requirements,
               resulting in FUSD misclassifying some of these costs as other categories of costs.
               FUSD representatives stated that they did not realize the need to separately
               identify participant support costs. FUSD had to manually review expenditure
               information in its financial records and prepare summaries solely for the purpose
               of the audit.

       •       FUSD did not have adequate policies and procedures for determining allowable
               indirect costs. Incorrect indirect cost rates were used and incorrectly applied to
               total direct costs without excluding participant support costs.

The failure to properly account for and maintain adequate documentation for payroll costs,
participant support costs, indirect costs, and cost share makes it difficult if not impossible to
monitor award expenditures for allowability; raises questions as to the reliability and integrity of
the amounts claimed; and fails to evidence that the costs claimed benefited the NSF award.

Accordingly, we recommend that the NSF Directors of the Division of Institutional and Award
Support (DIAS) and the Division of Grants and Agreements (DGA) direct FUSD to develop and
implement a financial management system and adequate procedures to effectively administer and
monitor NSF funds. These steps should include (1) ensuring that employees maintain the proper
documentation to support salary and wage charges in compliance with OMB Circular A-87, (2)
implementing proper systems to identify, track, and report cost sharing and participant support
costs, and (3) providing training to appropriate personnel to properly calculate indirect costs.

FUSD officials stated that as a first-time NSF award recipient, they were not aware of the
importance of these issues. FUSD submitted the required annual reports, attended all Principal
Investigators/Project Directors (PI/PD) meetings, and hosted reverse site visits for the cognizant
NSF program officer and team members. The content of these interactive functions never
addressed acceptable accounting and documentation practices for NSF awards. As time passed
and leadership changed both with NSF and in their district, new personnel focused simply on
continuing what had been done before, as they learned their duties and roles, thus increasing
their inability to catch these errors. FUSD officials further stated that they have implemented
procedures to address each of the findings and staff have been trained and follow the appropriate
procedures. Supervisors are responsible for employees’ adherence to described procedures.

                                                 4
FUSD’s comments are responsive to the recommendations. However, the findings cannot be
resolved, nor should additional awards be made to FUSD, until NSF verifies that the proposed
corrective actions have been satisfactorily implemented and all recommendations have been
adequately addressed. FUSD’s response has been summarized within the report and included in its
entirety in Appendix A.

For a complete discussion of these findings, refer to the Independent Auditors’ Report on
Compliance with Laws and Regulations and Internal Control over Financial Reporting.

EXIT CONFERENCE

We conducted an exit conference on March 14, 2002, at FUSD’s offices in Fresno, California
during which we discussed findings and recommendations as well as other observations
contained in this report with those attending.

Representing FUSD were:

       XXXXXXXXXXXXXXXXXXXXXXXXX
       XXXXXXXXXXXXXXXXXXXX
       XXXXXXXXXXXXXXXXXXXXXXXXXX
       XXXXXXXXXXXXXXXX

Representing Cotton & Company LLP were:

       XXXXXXXXXXXXXXXXXX
       XXXXXXXXXXXXXXXX
       XXXXXXXXXX

We conducted a second exit conference on November 17, 2003, after we revisited FUSD to
further evaluate the payroll charges and cost share claimed. During this exit conference, we
discussed the findings and recommendations contained in this report with XXXXXXX and
XXXXXX




                                              5
AUDIT FINDINGS AND
RECOMMENDATIONS
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


         INDEPENDENT AUDITORS’ REPORT ON FINANCIAL SCHEDULES

We have audited the costs claimed by Fresno Unified School District (FUSD) to the National
Science Foundation (NSF) on the Federal Cash Transaction Reports (FCTR) - Federal Share of
Net Disbursements, for the NSF award listed below. In addition, we also audited the amount of
cost sharing claimed on the award. The FCTRs, as presented in the Schedule of Award Costs
(Schedule A), are the responsibility of FUSD’s management. Our responsibility is to express an
opinion on the Schedule of Award Costs based on our audit.

               Award Number              Award Period               Audit Period
           ESR-9452988               09/01/95 to 8/31/00       09/01/95 to 8/31/00

The NSF award required that FUSD provide minimum cost sharing of $12,229,578. The
Schedule of Cost Sharing (Schedule C) presents cost sharing expenses claimed by FUSD of
$17,538,877. FUSD could not properly account for or support any of the claimed cost sharing
expenditures.

Except as discussed in the following paragraph, we conducted our audit in accordance with
auditing standards generally accepted in the United States of America, Government Auditing
Standards, as revised, issued by the Comptroller General of the United States, and the National
Science Foundation Audit Guide, September 1996, as applicable. Those standards and the
National Science Foundation Audit Guide require that we plan and perform the audit to obtain
reasonable assurance that the amounts claimed to NSF as presented in the Schedule of Award
Costs are free of material misstatement. An audit includes examining, on a test basis, evidence
supporting the amounts and disclosures in the Schedule of Award Costs (Schedule A). An audit
also includes assessing the accounting principles used and significant estimates made by FUSD’s
management, as well as evaluating the overall financial schedule presentation. We believe that
our audit provides a reasonable basis for our opinion.

The Schedule of Questioned Costs (Schedule B) explains the NSF funded costs in the amount of
$6,858,207 that we have questioned as to their allowability under the NSF award agreement ESR-
9452988 due to the lack of supported cost share and incorrectly calculated indirect costs.
Questioned costs are (1) costs for which documentation exists to show that recorded costs were
expended in violation of laws, regulations, or specific conditions of the award, (2) costs that
require additional support by the awardee, or (3) costs that require interpretation of allowability
by the National Science Foundation - Division of Institution and Award Support (DIAS). The


                                                6
final determination as to whether such costs are allowable will be made by NSF. The ultimate
outcome of this determination cannot presently be determined. Accordingly, no adjustment has
been made to costs claimed for any potential disallowance by NSF.

The $6,858,207 amount represents 46 percent of the total costs claimed. The Schedule of Cost
Sharing (Schedule C) explains the $17.5 million of cost sharing (100 percent) that FUSD claimed
that we have determined to be unacceptable expenditures under this award. Specifically:

       1. FUSD could not properly account for or support $17,538,877 of cost sharing claimed
          and as a result, FUSD did not meet the $12.2 million in cost sharing required by the
          award agreement. Consequently, NSF’s share of the total award costs was
          proportionately reduced by $6,637,283; and

       2. FUSD claimed unallowable indirect costs of $220,924 because it used rates and an
          indirect cost base not specified in the award agreement.

In our opinion, except for $6,858,207 of questioned NSF-funded costs and $17,538,877 of
unacceptable cost sharing expenditures, the Schedule of Award Costs (Schedule A) referred to
above presents fairly, in all material respects, costs claimed on the Federal Cash Transaction
Reports – Federal Share of Net Disbursements and cost sharing for the period September 1,
1995, to August 31, 2000, in conformity with the National Science Foundation Audit Guide,
NSF Grant Policy Manual (GPM), and terms and conditions of the NSF award and on the basis
of accounting policies described in the Notes to the Financial Schedules. This schedule is not
intended to be a complete presentation of financial position in conformity with accounting
principles generally accepted in the United States of America.

In accordance with Government Auditing Standards and the provisions of the National Science
Foundation Audit Guide, we have also issued a report dated March 14, 2002, on our tests of
FUSD's compliance with certain provisions of laws, regulations, and the NSF award terms and
conditions and our consideration of FUSD’s internal control over financial reporting. That
report is an integral part of an audit performed in accordance with Government Auditing
Standards and should be read in conjunction with this report in considering the results of our
audit.

This report is intended solely for the information and use of FUSD’s management, NSF, FUSD’s
cognizant federal agency, the Office of Management and Budget, and the Congress of the United
States of America and is not intended to be, and should not be used by anyone other than these
specified parties.


COTTON & COMPANY LLP

______________________________
XXXXXXXXXXXXXX

March 14, 2002


                                              7
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


    INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE WITH LAWS AND
   REGULATIONS AND INTERNAL CONTROL OVER FINANCIAL REPORTING

We have audited the costs claimed as presented in the Schedule of Award Costs (Schedule A),
which summarizes the financial reports submitted by the Fresno Unified School District (FUSD)
to the National Science Foundation (NSF) and claimed cost sharing, for the award listed below
and have issued our report thereon dated March 14, 2002.

           Award Number              Award Period             Audit Period
           ESR-9452988               09/01/95 to 8/31/00      09/01/95 to 8/31/00

We conducted our audit of the Schedule of Award Costs as presented in Schedule A in
accordance with auditing standards generally accepted in the United States of America,
Government Auditing Standards, as revised, issued by the Comptroller General of the United
States, and the National Science Foundation Audit Guide, September 1996, as applicable. Those
standards and the National Science Foundation Audit Guide require that we plan and perform the
audit to obtain reasonable assurance that the financial schedule is free of material misstatement.

COMPLIANCE WITH LAWS AND REGULATIONS

Compliance with applicable federal laws, regulations, and the NSF award terms and conditions
is the responsibility of FUSD’s management. As part of obtaining reasonable assurance about
whether FUSD’s financial schedule is free of material misstatement, we performed tests of
FUSD’s compliance with certain provisions of applicable laws, regulations, and the NSF award
terms and conditions, noncompliance with which could have a direct and material effect on the
determination of the financial schedule amounts. However, providing an opinion on compliance
with those provisions was not, however, an objective of our audit and, accordingly, we do not
express such an opinion.

The results of our tests of compliance disclosed instances of noncompliance that are required to
be reported under Government Auditing Standards and the National Science Foundation Audit
Guide; see Findings 1 through 4 below.




                                                8
INTERNAL CONTROL OVER FINANCIAL REPORTING

The management of FUSD is responsible for establishing and maintaining internal control. In
fulfilling this responsibility, estimates and judgments by management are required to assess the
expected benefits and related costs of internal control policies and procedures. The objectives of
internal control are to provide management with reasonable, but not absolute assurance that
assets are safeguarded against loss from unauthorized use or disposition, and that transactions are
executed in accordance with management’s authorization and recorded properly to permit the
preparation of financial schedules in accordance with accounting principles prescribed by NSF.
Because of inherent limitations in any internal control, misstatements due to errors or fraud may
nevertheless occur and not be detected. Also, projection of any evaluation to future periods is
subject to the risk that procedures may become inadequate because of changes in conditions or
that the effectiveness of the design and operation of policies and procedures may deteriorate.

In planning and performing our audit of the Schedule of Award Costs for the period September
1, 1995, to August 31, 2000, we considered FUSD’s internal control over financial reporting in
order to determine our auditing procedures for the purpose of expressing our opinion on the
financial schedule and not to provide an opinion on internal control. Accordingly, we do not
express such an opinion.

We noted, however, certain matters involving the internal control over financial reporting and its
operation that we consider reportable conditions under standards established by the American
Institute of Certified Public Accountants. Reportable conditions involve matters coming to our
attention relating to significant deficiencies in the design or operation of the internal control over
financial reporting that, in our judgment, could adversely affect FUSD’s ability to record,
process, summarize, and report financial data consistent with management’s assertions in the
financial schedule. Reportable conditions we found are described in Findings 1 through 4 below.

Material weaknesses are reportable conditions in which the design or operation of one or more of
the internal control elements does not reduce to a relatively low level the risk that misstatements
in amounts that would be material in relation to the financial schedule being audited may occur
and not be detected within a timely period by employees in the normal course of performing
their assigned functions. Our consideration of the internal control over financial reporting would
not necessarily disclose all matters related to internal control over financial reporting that might
be reportable conditions and, accordingly, would not necessarily disclose all reportable
conditions that are also considered to be material weaknesses. We consider all of the reportable
conditions described below to also be material weaknesses.




                                                  9
FINDINGS

Finding No. 1. Lack of Adequate Supporting Documentation for Salary and Fringe Benefit
Costs.

FUSD lacked employee certifications and personnel activity reports that federal regulations and
NSF requires to support $5.1 million (100 percent) of total salary and fringe benefit costs
charged to the NSF award.

OMB Circular A-87, Attachment B, Section 11h, states that, to be allowable, charges to federal
awards for salaries and wages, whether treated as direct or indirect costs, will be based on
payroll documented in accordance with the generally accepted practice of the governmental unit
and approved by a responsible official of that unit. Specifically, when employees are expected
to work solely on a single federal award or cost objective, charges for their salaries and wages
must be supported by periodic certifications (at least semi-annually) indicating that the
employees worked only on that program. The certification should be signed by the employee or
supervisory official having first hand knowledge of the work performed by the employee. On
the other hand, when employees work on multiple activities or cost objectives, a distribution of
their salaries or wages must be supported by personnel activity reports that reflect an after-the-
fact distribution of the actual activity of each employee; account for the total activity for which
each employee is compensated; be prepared at least monthly; and be signed by the employee.

FUSD representatives stated that timesheets detailing actual activities are required on all federal
awards except for the NSF awards. Employees assigned to the NSF award were not required to
prepare timesheets or certifications detailing their actual activities nor maintain other supporting
records such as personal calendars. FUSD representatives explained that they did not realize that
the NSF awards were subject to timesheet requirements stipulated in OMB Circular A-87. Each
pay period, FUSD’s accounting system allocated payroll charges to funding sources (grants or
other cost objectives) based on personnel requisition forms initiated at the time the employee
was first assigned to work on the NSF award. The requisition forms were submitted to the
Payroll Department by each employee’s supervisor. The requisition form detailed the
percentage of salary costs to be allocated to each funding source based on the supervisor’s
estimate of the percentage of time the employee was expected to work on each grant or cost
activity. As a result of not completing the required certifications, FUSD was unable to ensure
the validity and accuracy of the estimated salary and benefit costs that FUSD’s accounting
system automatically charged to NSF Award No. ESR-9452988.

Without the after-the-fact time certifications or personnel activity reports required by NSF,
FUSD was unable to support that the labor effort costs charged to NSF Award No. ESR-9452988
were actually incurred and benefited the NSF award. Consequently, we interviewed an
appropriate sample of FUSD employees and supervisors and were able to verify that the
employees whose salaries were charged to the award actually performed work on the award.
However, while FUSD staff we interviewed confirmed the validity of the costs charged to NSF
Award No. ESR-9452988, FUSD must immediately comply with the salary supporting
documentation requirements of OMB Circular A-87 to provide assurance in the future that all
salary charges to all NSF awards are allowable, allocable, and reasonable.

                                                10
Recommendation No. 1: We recommend that the NSF Directors for the Division of Institution
and Award Support (DIAS) and the Division of Grants and Agreements (DGA) direct FUSD to
immediately implement policies and procedures to ensure that employees maintain semi-annual
certifications and monthly personnel activity reports to support salaries and wages charged to
NSF awards as required by OMB Circular A-87, Attachment B, Section 11h.

Awardee’s Response: In its response to the draft audit report (Appendix A), FUSD stated that:

       Each pay period, FUSD’s accounting system allocated payroll charges to
       funding sources (grants or other cost objectives) based on personnel requisition
       forms initiated at the time the employee was first assigned to work on the NSF
       award. The requisition forms were submitted to the Human Resources
       department by each employee’s supervisor. The requisition form detailed the
       percentage of salary costs to be allocated to each funding source based on the
       supervisor’s estimate of the percentage of time the employee was expected to
       work on each grant or cost activity. A supervisor would change an employee’s
       funding percentage if he or she deemed it necessary. Accordingly, this change
       would be initiated via a personnel requisition.

       Former and current FUSD staff were interviewed and provided signature
       statements to Cotton & Company regarding effort charged to the NSF award.
       Both interviews and statements support the validity and the appropriateness of
       the costs charged to NSF Award No. ESR-9452988.

       FUSD implemented the following procedures. NSF staff has been trained to
       follow procedures. Time Accounting Record reports are available for our
       current NSF award beginning August 2000.

       Written procedures to track direct labor effort spent on NSF awards and all
       federal funds:

       1.     All employees involved in the grant keep Time Accounting Record
              reports. This is true for those charged to the project and for those used
              for cost share.
       2.     Employees record the percentage of time spent on the project.
              Employees who are split funded record the amount of time spent to each
              project.
       3.     Time Accounting Record reports are given to the Budget Manager and
              are entered in the computer to ensure the percentages are accurate for
              time required to the project.
       4.     Time Accounting Record reports are signed by the appropriate
              supervisors and returned to the Budget Manager to be filed for each
              fiscal year of the project.
       5.     The portion of the employee’s salary, which is charged to the cost share
              of the NSF program, is charged to the budget: XXXXXXXXXXXXX.


                                              11
               The activity code XXX has been designated as the District’s cost share
               for NSF/USI/USP.

Auditors’ Comments:

FUSD’s comments appear responsive to the recommendation. However, the findings cannot be
resolved until NSF verifies that the proposed corrective actions have been satisfactorily
implemented and all recommendations have been adequately addressed.

Finding No. 2. Lack of a System to Identify, Account for, Monitor and Report Cost
Sharing.

FUSD lacked a system to identify, account for, and monitor the cost sharing it attributed to the
NSF award, raising questions as to the reliability and integrity of the $12,203,161 FUSD claimed
on its certified reports to NSF and the $17,538,877 that FUSD claimed as its total cost-sharing to
the auditors. Also, FUSD did not submit many of its required cost sharing certifications until the
audit.

Lack of a System to Identify and Account for Cost Sharing

GPM Section 333.6, Cost Sharing Records and Reports and OMB Circular A-110, Section 23
require a grantee to maintain records of all costs claimed as cost sharing and those records are
subject to audit. Those regulations also state that cost sharing expenses must be verifiable from
the recipient’s records, not be included as contributions to any other federal award, or funded by
any other federal award. OMB Circular A-110, Section 23, states that to be accepted as part of
the recipient's cost sharing, the expenditures must be necessary and reasonable for proper and
efficient accomplishment of project or program objectives and allowable under the applicable
cost principles.

However, FUSD’s accounting system, while it captured all expenses, did not separately identify
and track those expenses incurred as cost sharing nor is there an alternative manual system in
place to identify, account for, or monitor cost sharing. As such, FUSD could not readily identify
in its accounting records the cost sharing amounts it had claimed under the NSF award. In fact,
to prepare for the audit, FUSD had to manually extract and reconstruct data, and prepare
schedules to support its cost sharing claims.

FUSD could not also provide any source documentation to evidence that the expenses included
on its manually prepared schedules represented costs benefiting the NSF award, as opposed to
other FUSD or federal programs. Cost sharing expenses claimed were not based on invoices, but
on miscellaneous information accumulated outside FUSD’s accounting system by FUSD’s
program officials. According to FUSD representatives, none of the costs claimed were identified
in the accounting records as award expenditures. Supporting documents consisted of various
types of worksheets and memoranda assembled by FUSD, some of which were only handwritten
papers. No documentation explained the relationship of the costs to NSF program objectives.
Further, many of the expenditures were based on unsupported allocations. For example, 25
percent of the cost of library books ($147,438) was estimated to be related to science and
mathematics and split between two NSF awards without any explanation. In addition:

                                               12
       •       FUSD claimed $1,289,763 in salaries and wages that were included in the cost
               pool of its negotiated indirect cost rates. FUSD representatives agreed that these
               costs should not have been claimed as cost-share expenses.

       •       FUSD claimed $10,093,648 in cost-share expenses related to upgrading science
               labs and classrooms, networking schools, constructing a high school, and
               obtaining equipment. OMB Circular A-87, Section 19, states that capital
               expenditures for equipment, including replacement equipment, other capital
               assets, and improvements which materially increase the value or useful life of
               equipment or other capital assets, are allowable as a direct cost when approved by
               the awarding agency. NSF did not approve capital construction costs as direct
               costs or as cost-sharing expenses. According to NSF Program Announcement
               No. 93-67, upgrading or expanding equipment is not a priority in this program,
               and only items allowable under applicable cost principles, if charged to the
               project, may be included as the grantee’s contribution to cost sharing and costs
               associated with buildings and equipment used during FUSD's normal operations
               would not be allowable as cost sharing. See the Schedule of Cost Sharing
               (Schedule C) and the related note No. 2.

FUSD’s XXXXXXXX Department Director stated that program personnel were responsible for
informing the Accounting Department of cost share requirements on specific awards so that costs
could be accumulated in the accounting system. However, the Accounting Department was
never notified of the NSF award’s cost sharing requirements. Program personnel were unable to
explain why the Accounting Department was not notified.

As detailed in Schedules A and C, FUSD failed to meet NSF’s award records requirement for
any of the $17.5 million in cost sharing expenses claimed to the auditor. We, therefore,
disallowed the entire $17.5 million of cost sharing claimed by FUSD. Having failed to meet the
required $12.2 million of cost sharing, we questioned $6,637,283 representing costs exceeding
NSF’s proportionate share of the total project costs. As stated in GPM 333.3, a failure to provide
the level of cost sharing reflected in the approved award may result in disallowance of award
costs. See Schedule B for computation of the questioned award costs resulting from FUSD’s
cost sharing shortfall.

Cost Share Certifications Were Not Properly Submitted to NSF

NSF’s award agreement requires FUSD to report and certify on an annual and cumulative basis,
the amount of cost sharing it had contributed as part of the annual progress and final project
reports.

However, FUSD only submitted to NSF 2 of the 5 required cost share certifications. Also, the
certifications submitted to NSF did not report, as required, the cumulative cost share expenditure
amounts claimed. FUSD representatives stated that new personnel hired during the award period
did not understand or were not aware of the NSF award’s cost-share certification requirements.
Our audit prompted FUSD to prepare and submit to NSF a cumulative certification showing
$17.5 million in shared costs for the NSF award.

                                               13
Recommendation No. 2: We recommend that the NSF Directors of DIAS and DGA direct
FUSD to establish a system to identify, account for, monitor and report cost sharing expenses
and, at a minimum, ensure that:

        a.    Cost sharing is separately tracked, accounted for and verifiable in FUSD’s
              records; is not included as contributions for any other federally-assisted project or
              program; is necessary and reasonable for proper and efficient accomplishment of
              project and program objectives; is allowable under applicable cost principles; and
              is not paid by the federal government under another award;

        b.    All awards with cost sharing requirements are immediately identified and
              reported to the Accounting Department;

        c.    Cost sharing costs incurred and claimed are appropriately reviewed, approved,
              and recorded as they occur to establish that they are reasonable, allocable, and
              allowable;

        d.    Cost sharing records are adequately maintained and documented;

        e.    Cost sharing certifications are submitted to NSF in a complete, accurate and
              timely manner; and

        f.    Cost sharing policies and procedures are developed in writing consistent with
              NSF requirements, and communicated to appropriate FUSD staff.

Awardee’s Response: In its response to the draft audit report (Appendix A), FUSD stated that:

       Lack of a System to Identify and Account for Cost Sharing

       The FUSD USI funded proposal referenced the improvement of mathematics,
       science, and technology facilities as local initiatives. The use of $15 million
       bond earmarked for improvements were listed as cost sharing funds on the
       summary page as well as on pages 5 and 17 of the funded proposal. These funds
       were also referenced in the cost share signature page sent to NSF 5/14/96. In
       addition, NSF received a letter dated June 25, 1995 describing the use of $15
       million in capital improvement bond money for cost sharing. This letter was
       addressed to XXXXXXXXXXXXX NSF Program Officer and sent under
       signature     by     FUSD’s        XXXXXXXXXXXXXX                and      FUSD’s
       XXXXXXXXXXXXXXXXXXXXX. FUSD was never directed to implement
       the proposal differently than as written. After a successful bond election, the
       FUSD Board of Education honored the commitment to the program to use this
       money as cost sharing funds as stated in the funded proposal. Documents were
       provided to the auditors illustrating the science facilities expenditures. FUSD
       acted in good faith to the funded proposal and was never directed this action
       was not allowed for cost share.


                                               14
Cost Share Certifications Were Not Properly Submitted to NSF

FUSD used the funding cycles to submit the cost share reports. NSF accepted
these reports and never informed FUSD that submission was not sufficient.
Funding for year 1 was for 1995-1996 (12 months). FUSD submitted Year 1
cost sharing on 5/14/96 under signature of XXXXXXXXXX. Funding for year
2 was for 1996-1997 (12 months). FUSD submitted Year 2 cost share on 5/8/97
under signature of XXXXXXXXXX. Funding for Years 3, 4, and 5 came in 2
18-month installments. FUSD submitted a 3rd report on 3/11/99 for 18 months
of cost share under the signature of XXXXXXXXXX. Copies of three cost
sharing reports were provided to Cotton & Company representatives during
their fieldwork visits.

As a result of added support from NSF for our current NSF award, FUSD
receives annual reminders of the certification’s due date. FUSD has been
submitting this certification in a timely manner.

Beginning fiscal year 2003, FUSD implemented the following procedures.
FUSD staff has been trained to follow these procedures. Cost share submission
continues to be submitted on an annual basis to the cognizant NSF officer.

Written procedures for cost sharing requirements for NSF awards and all other
awards with cost sharing requirements:

1.     The Budget Manager submits a B20 form, award letter, and other
       documentation to Fiscal Services.
2.     The Financial Analyst and the Budget Manager compile the necessary
       object lines (i.e. salaries, benefits, etc.) needed to administer the general
       operation of the program.
3.     The Financial Analyst reads the award letter and other documentation to
       determine the program’s allowable costs and cost sharing requirements.
4.     If the program has a cost share requirement, the Financial Analyst will
       work with the Budget Manager to identify the budget representing the
       cost share.
5.     If the cost share is a salary, a personnel requisition will be submitted to
       Human Resources to change the funding percentage of the employee to
       the budget containing the District’s cost share.
6.     All cost sharing requirements are coded to an activity code designated
       for the program.
7.     For example, the XXXXXXXX regular salary is charged to the budget:
       XXXXXXXXXXXXX.
8.     The portion of the XXXXXXXX salary, which is charged to the cost
       share of the NSF program, is charged to the budget:
       XXXXXXXXXXXXX. The activity code XXX has been designated as
       the District’s cost share for NSF/USI/USP.



                                         15
       9.     The Financial Analyst and the Budget Manager will monitor to ensure
              the expenses, include in the cost share, are properly coded to the
              appropriate budget.
       10.    At the end of the fiscal year, the Financial Analyst and Budget Manager
              will ensure the District has met the required cost share.
       11.    If the cost share is materials that directly support of the program, then
              the activity and function codes are charged to the designated cost
              sharing code.

Auditors’ Comments:

FUSD could not provide any specific evidence that NSF had approved capital construction costs
as cost sharing expenditures, nor did NSF make any specific provision for capital construction
costs in its award documents. Otherwise, the corrective actions that FUSD provided appear
responsive to the recommendations. However, the findings cannot be resolved until NSF verifies
that the proposed corrective actions have been satisfactorily implemented and all
recommendations have been adequately addressed.

Finding No. 3.     Lack of Appropriate Guidance Resulted in Excessive Indirect Costs
Claimed.

FUSD did not have adequate policies and procedures for determining allowable indirect costs
under NSF Award No. ESR-9452988. The award provided for a predetermined, fixed 5-percent
indirect cost rate applicable to total direct costs less participant support costs. However, FUSD
applied rates that ranged from 4.95 to 6.39 percent to total direct costs including participant
support costs. As a result, FUSD overcharged the NSF award by $220,924 for indirect costs.

According to FUSD representatives, its accounting personnel were not notified of the special
award provisions or the NSF regulations related to indirect costs. FUSD should have provided,
at a minimum, the NSF award terms for indirect costs to the staff assigned to determine the
prescribed indirect costs for the NSF award. We questioned the $220,924 in overcharged
indirect costs. See further explanation of how the questioned amount was calculated in Schedule
B, Note 2.

Recommendation No. 3: We recommend that the NSF Directors of DIAS and DGA direct
FUSD to develop and implement written policies and procedures to ensure that appropriate
personnel are made aware of accurate indirect cost terms of all NSF awards, and that indirect
costs claimed are calculated in accordance with those terms.




                                               16
Awardee’s Response: In its response to the draft audit report (Appendix A), FUSD stated that:

       Historically, the indirect rate for the district has been less that 5 percent.
       However, with time the rate eventually increased to over 5 percent. Changes in
       the department staff at all levels may have played a role in applying the incorrect
       indirect rate.

       Upon learning this error, FUSD immediately implemented the following
       procedures for the NSF award. FUSD staff has been trained to follow the
       procedures.

       Procedures for indirect cost computation for NSF awards:

       1.     At the end of fiscal year, Financial Analyst ensures that the expenditures
              in the District’s mainframe are complete for the NSF Program.
       2.     The Financial Analyst will inquire to the NSF staff the amount of the
              expenditures to be excluded from the computation of indirect cost. This
              amount is in addition to the expenditures for capital outlay (if any), which
              are excluded from the calculation.
       3.     NSF staff will send Fiscal Services supporting documentation for the
              amount they are requesting to be excluded from the computation of
              indirect cost. The supporting documentation should include where the
              participant costs were charged in the NSF budget.
       4.     After review of the documentation, the Financial Analyst will decrease the
              total expenses for the NSF grant in the database used to compile the fiscal
              year end information for the District’s grants and entitlements. The
              database is used to report the revenues and expenditures as well as
              calculate accounts receivable, deferred revenue, accounts payable, and
              indirect cost.
       5.     The final step is to produce a journal voucher document that will debit the
              NSF’s programs indirect cost object – 7315 and credit the revenue in the
              District’s General Fund.

Auditors’ Comments:

FUSD’s comments appear responsive to the recommendation. However, the findings cannot be
resolved until NSF verifies that the proposed corrective actions have been satisfactorily
implemented and all recommendations have been adequately addressed.

Finding No. 4. Lack of a System to Track, Document, and Monitor the Use of Participant
Support Funds.

FUSD did not have an adequate system to track, document, and monitor the use of participant
support funds.

NSF’s Grant General Conditions (GC-1, 10/98), Article 2.b, state that funds provided for
participant support may not be used for other categories of expense without the written prior

                                               17
approval of the cognizant NSF program officer. To comply with this requirement, an awardee
must be able to identify and track its participant support expenditures.

FUSD did not have such a tracking system. According to FUSD representatives, they did not see
the need to separately identify participant support costs in the accounting system. To support the
$3.5 million of participant support costs, representing 23 percent of total claimed cost, FUSD
had to manually review expenditure information in its financial records and prepare summaries
solely for the purpose of the audit. Our testing, for the most part, found that FUSD was able to
eventually show that it spent the funds solely for participant support costs, except for the
following instances of misclassifications of participant support costs that we found in FUSD’s
summaries:

               $119,531 – recorded as participant support stipends, but were actually salaries
               and wages;
               $101,759 – recorded as participant support stipends, but were actually non-
               participant support travel costs; and
               $151,214 – recorded as salaries and wages, but were actually fringe benefit costs
               allocable to participant support stipends.

No questioned costs resulted because the misclassified participant support costs were allowable
costs for the other cost categories in which they were expended. However, the failure to
separately record and account for participant support costs makes it difficult or impossible to
monitor participant support expenditures for allowability and could result in funds budgeted for
such costs being used to pay for other categories of expense without proper NSF approval.

Recommendation No. 4: We recommend that the NSF Directors of DIAS and DGA direct
FUSD to establish a system and appropriate policies and procedures to track, document and
ensure the allowability of participant support costs and ensure that all FUSD staff working on
NSF awards are adequately trained and made aware of the federal and NSF requirements for
seeking NSF approval to spend participant support funds for other purposes.

Awardee’s Response: In its response to the draft audit report (Appendix A), FUSD stated that:

       During the award period, the participant support costs were identified by the
       District’s accounting system. These amounts are categorized in the object code
       of the budget. The USI office staff kept back up information to support
       expenditures identified as participant support costs, because there is not a
       specific object code for participant support. Excluding participant support is not
       consistent with how procedures were conducted. Common practice for FUSD is
       to exclude capital outlay only from the indirect cost calculation for most grants
       and entitlements. As a first time NSF award recipient, cognizant NSF program
       officers did not advise us of the importance of this issue.

Upon learning this error, FUSD immediately implemented the following procedures.
FUSD staff has been trained on these procedures.

Procedures for claiming participant support costs for NSF awards:

                                               18
       1.     A request for supplies, conference registration, other services, etc. is put
              into the system by a number automatically by the District’s accounting
              system.
       2.     The Budget Manager will enter the RX, PD, PG, or SR document
              number into the USI/USP database along with the vendor name, amount
              and description of what the order is for.
       3.     The Budget Manager checks to see where it fits in the NSF Form 1030
              and includes the item letter and number. This includes travel,
              publication of materials etc.
       4.     For example, when the item is a supplemental/extra pay contract, the
              Budget Manager places it under F1 for Participant Stipends.
       5.     During May and June, the Budget Manager checks to see what items are
              still open that need to be paid. Once that is done, a review of the F180
              screens is made to ensure the total amounts are correct.
       6.     The Budget Manager then sorts the items by the NSF Form1030 lines to
              find out what has been expended for all participant costs.
       7.     The Budget Manager then reports the amounts to the Budget Analyst by
              object lines. The amount of participant costs is subtracted from the
              amount of expenditures done throughout the year and the indirect is then
              calculated.

Auditors’ Comments:

FUSD’s comments appear responsive to the recommendation. However, the findings cannot be
resolved until NSF verifies that the proposed corrective actions have been satisfactorily
implemented and all recommendations have been adequately addressed.

This report is intended solely for the information and use of FUSD’s management, the NSF, the
cognizant federal audit agency, the Office of Management and Budget, and the Congress of the
United States and is not intended to be and should not be used by anyone other than these
specified parties.


COTTON & COMPANY LLP

______________________________
XXXXXXXXXXXXXX

March 14, 2002




                                               19
FINANCIAL SCHEDULES
 AND SUPPLEMENTAL
    INFORMATION
                                                                                     SCHEDULE A

                                  FRESNO UNIFIED SCHOOL DISTRICT
                                       FRESNO, CALIFORNIA

                        NATIONAL SCIENCE FOUNDATION AWARD NO. ESR-9452988
                                     SCHEDULE OF AWARD COSTS
                              SEPTEMBER 1, 1995, TO AUGUST 31, 2000
                                              Final

                                                                                     Questioned
                                                                     Claimed           NSF-
                      Approved     Claimed                         Costs After        Funded    Schedule
Cost Category          Budget       Costs     Reclassifications   Reclassification     Costs    Reference
XXXXXXXXXX            XXXXXX      XXXXXX             XXXX             XXXXXX                     XXXXX
XXXXXXXX                XXXX       XXXXX             XXXXX              XXXX                     XXXXX
XXXXXXXXXX                           XXX              XXXX                                       XXXXX
XXXX                     XXXX                        XXXX                XXXX                    XXXXX
XXXXXXXXXX
 XXXX                 XXXXXX        XXXXX           XXXXXX             XXXXX                     XXXXX
 XXXX                   XXXX         XXXX                               XXXX
 XXXXXX                 XXXX
 XXX                    XXXX            XX           XXXX                XXXX                    XXXXX
XXXX XXXX XXX:
 XXXXXX      XX         XXXX        XXXXX             XXX              XXXXX                     XXXXX
XXXX                    XXXX
 XXXXXXX XXX           XXXXX        XXXXX                              XXXXX
 XXXXXX XXXX
 XXXXXX                 XXXX
 XXXXXXXXXXX           XXXXX        XXXX                __              XXXX
                      XXXXXX      XXXXXX               XX             XXXXXX
XXXXXXXXXXXXX          XXXX         XXXX                __             XXXX             XXXX     XXXXX
   XXXXX              XXXXXX      XXXXXX               XX             XXXXXX            XXXX

XXXXXXXXXX
XXXXXXXXX
XXXXXX               __________         XX                                   XX      _________   XXXXX

    XXXX              XXXXXX       XXXXXX1                            XXXXXX            XXXX

    XXX XXXX          XXXXXX      XXXXXX                              XXXXXX          XXXXXX     XXXXX




                XX
             XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
       XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
       XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
       XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX

                                               21
                                                                                    SCHEDULE B

                              FRESNO UNIFIED SCHOOL DISTRICT
                                   FRESNO, CALIFORNIA

                  NATIONAL SCIENCE FOUNDATION AWARD NO. ESR-9452988
                            SCHEDULE OF QUESTIONED COSTS
                        SEPTEMBER 1, 1995, TO AUGUST 31, 2000

1.   Reclassifications.     While preparing the Summary of Claimed Costs, FUSD
     representatives incorrectly included some expenditures in the wrong NSF cost category.
     We reclassified costs as follows:

     •      $119,531 of participant support stipends were actually salaries and wages.
     •      $101,759 of participant support stipends were actually non-participant support
            travel costs.
     •      $151,214 of fringe benefits were actually fringe benefit costs allocable to
            participant support stipends.
     •      $2,436 of equipment costs were actually materials and supplies.

2.   Indirect Costs.       FUSD did not claim indirect costs in accordance with award terms.
     Section III, B1, of the award states that indirect costs will be based on a fixed 5-percent
     indirect rate applied to direct costs less participant support costs. FUSD did not use the
     5-percent rate in all years and applied the rates to total direct costs, including participant
     support costs.

     GPM 632.2 states that NSF generally provides no amounts for indirect costs for
     participant support costs. According to FUSD representatives, its accounting personnel
     were not notified of special provisions in the award or the NSF regulations related to
     indirect costs. We calculated questioned costs as follows:

           Total direct costs claimed                                 $14,238,818
             Less: Participant support costs per                        3,432,671
             audit
           Indirect cost base per audit                               $10,806,147
           Fixed indirect cost rate                                           5%
           Indirect costs per audit                                      $540,307
           Less: Claimed indirect costs                                   761,231
           Questioned costs                                              $220,924




                                              22
3.      Costs Incurred in Excess of Costs Claimed. Net disbursements reported on the
        September 30, 2000, FCTR were $49 less than costs recorded on FUSD’s books of
        accounts.

4.      Questioned because of Cost-Sharing Shortfall. As detailed in Schedule C, FUSD
        claimed cost-share expenses of $17,538,877, all of which we classified as unacceptable
        because of inadequate supporting accounting records. In accordance with GPM 333.3,
        grantees must cost share at the level of cost sharing included in the award. Because of
        the unacceptable costs, FUSD did not cost share allowable costs at the level required (or
        $12.2 million) in the award. Using guidelines contained in NSF’s Auditing for Cost
        Sharing and Matching on NSF Grant Awards, we calculated excess funding NSF
        provided as a result of inadequate cost sharing as follows:


        Maximum Percentage of NSF Funding to Total Project Costs

        NSF Share Budgeted                                         $15,000,000
        FUSD Cost-sharing Required                                  12,229,578
        Total Project costs                                        $27,229,578

        Maximum NSF Share
        (NSF share-$15,000,000/Total project costs-$27,229,578)         55.09%

        Audit Results

        Claimed NSF Costs – Questioned NSF Costs
        ($15,000,000 - $220,924)                                   $14,779,076
        Claimed Cost-sharing – Unacceptable cost sharing
        ($17,538,877- $17,538,877)                                            0
        Adjusted Project Costs                                      $14,779,076

        Questioned Costs

        Adjusted Project Costs                                      $14,779,076
        Less: Maximum NSF Share (55.09% of $14,779,076)               8,141,793
        Questioned NSF Costs Due to FUSD’s
               Cost-sharing Shortfall                                $6,637,283

     Note: The amount of questioned cost sharing shortfall will ultimately depend on the amount
     of questioned direct and direct costs sustained which will be determined by NSF.




                                               23
                                                                 SCHEDULE C

                       FRESNO UNIFIED SCHOOL DISTRICT
                            FRESNO, CALIFORNIA

             NATIONAL SCIENCE FOUNDATION AWARD NO. ESR-9452988
                          SCHEDULE OF COST SHARING
                    SEPTEMBER 1, 1995, TO AUGUST 31, 2000


                                       Cost
                                      Sharing    Unacceptable
  Cost Category                       Claimed       Costs        Notes
  XXXXXXXXXX                         XXXXXX        XXXXXX          X
  XXXXXX
   XXX                                    XXXX          XXXX      XX
   XXXXXXXX                               XXXX          XXXX      XX
   XXXXXXXXXX                             XXXX          XXXX      XX
   XXXXXXXXX                              XXXX          XXXX      XX
  XXXX                                      XX            XX      XX
  XXXXXXXXXXXX                            XXXX          XXXX       X
  XXXXXXXXXX
   XX                                  XXXX          XXXX         XX
   XX                                  XXXX          XXXX         XX
   XXXXX                              XXXXX         XXXXX         XX
   XXXXXXXXXXX                         XXXX          XXXX         XX
   XXXXXXXXXXXX                        XXXX          XXXX         XX
   XXXX                               XXXXX         XXXXX         XX
   XXXXXXXXXXXXXX                     XXXXX        XXXXXX         XX
   XXXXXXXXXXXXXXXX                    XXXX          XXXX         XX
   XXXXXXXXXXXX                      XXXXXX         XXXXX         XX
   XXXXXXXXXXXXX                       XXXX          XXXX         XX
   XXX                                 XXXX          XXXX          X
   XXXXXXXX                            XXXX          XXXX         XX
   XXXXX                               XXXX          XXXX         XX
   XXXXXXXXXX                          XXXX          XXXX         XX
   XXXXXXXXXXXXXXX                     XXXX          XXXX         XX
   XXXXXXXXXX                         XXXXX         XXXXX         XX
   XXXXXX                             XXXXX         XXXXX          X
  XXXXXXXXXXXXX                       XXXXXX1      XXXXXX




     X
      XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXX

                                     24
                           FRESNO UNIFIED SCHOOL DISTRICT
                                 FRESNO, CALIFORNIA

                                   Notes To Schedule C

1.   Salary and Wages. FUSD claimed $1,289,763 in salaries and wages that were included
     in the cost pool of its negotiated indirect cost rates. Costs claimed were based on
     estimates by FUSD representatives who prepared the cost-share certifications and were
     not identified in the accounting records as grant expenditures. OMB Circular A-87,
     Attachment A, Part C, states that to be allowable under federal awards, costs must be
     accorded consistent treatment; a cost may not be assigned to a federal award as a direct
     cost if any other cost incurred for the same purpose in like circumstances has been
     allocated to the federal award as an indirect cost. FUSD representatives agreed that these
     costs should not have been claimed as cost-share expenses. We questioned the
     $1,289,763 claimed as cost sharing salary and wages.

2.   Building Upgrades and Equipment.             FUSD claimed $10,093,648 in cost-share
     expenses related to upgrading science labs and classrooms, networking schools,
     constructing a high school, and obtaining equipment. According to FUSD
     representatives, none of the costs claimed were identified in the accounting records as
     grant expenditures. Support consisted of various types of worksheets and memorandums
     assembled by FUSD representatives to support cost-share expenditures reported to NSF.
     FUSD did not provide accounting reports or other documentation to substantiate the
     claimed costs. Further, many of the expenditures were also based on unsupported
     allocation percentages.

     NSF Program Announcement No.93-67 for Urban Systemic Initiatives in Science,
     Mathematics and Technology Education, states that upgrading or expanding equipment is
     not a priority in this program and that only items allowable under applicable cost
     principles, if charged to the project, may be included as the grantee’s contribution to cost
     sharing. It further states that the use of school buildings, equipment, and materials during
     normal hours of operation is not considered cost sharing.

     OMB Circular A-110 Section 23, states that to be accepted as part of the recipient's cost
     sharing, the expenditures must be necessary and reasonable for proper and efficient
     accomplishment of project or program objectives and allowable under the applicable cost
     principles.

     OMB Circular A-87, Section 19, states that, capital expenditures for equipment,
     including replacement equipment, other capital assets, and improvements which
     materially increase the value or useful life of equipment or other capital assets, are
     allowable as a direct cost when approved by the awarding agency. NSF did not approve
     capital construction costs as direct costs or as cost-sharing expenses. Based on the cited
     regulations applicable to NSF Award No. ESR-9452988, costs associated with buildings
     and equipment used during FUSD's normal operations are not allowable as cost sharing.
     Accordingly, we questioned these costs.

                                              25
3.   Unsupported Expenditures.          FUSD claimed $6,155,466 in cost-share expenses not
     supported by accounting records or invoices. According to FUSD representatives, none
     of the costs claimed were identified in the accounting records as grant expenditures.
     Support consisted of various types of worksheets and memorandums assembled by FUSD
     representatives to support cost-share expenditures reported to NSF. FUSD did not
     provide accounting reports or other documentation. Further, many of the expenditures
     were based on unsupported percentages; for example 25 percent of the cost of library
     books was estimated to be related to science and mathematics, and then that resulting
     amount was split between FUSD’s two NSF grants. No documentation was available to
     support the relationship of the costs to NSF program objectives.

     OMB Circular A-110, Section 23, states that cost-sharing expenses are allowable when
     they are verifiable from the recipient's records and are necessary and reasonable for
     proper and efficient accomplishment of project or program objectives. NSF Program
     Announcement No. 93-67 states that the normal use of materials during normal school
     hours of operation is not considered cost sharing. We questioned the $6,155,466 in
     unsupported cost share expenditures.




                                          26
                                                                                 SCHEDULE D

                         FRESNO UNIFIED SCHOOL DISTRICT
              SUMMARY SCHEDULE OF AWARDS AUDITED AND AUDIT RESULTS
                       SEPTEMBER 1, 1995, TO AUGUST 31, 2000

                                  Summary of Awards Audited

Award Number                         Award Period                       Audit Period
ESR-9452988                        09/01/95 – 08/31/00               09/01/95 – 08/31/00

Award Number                         Type of Award                  Award Description
ESR-9452988                       Cooperative Agreement           Urban Systemic Initiatives
                                                                          Program

           Summary of Questioned, Unresolved, and Unsupported Costs by Award

NSF Award           Award          Claimed           Questioned   Unresolved    Unsupported
Number              Budget           Costs             Costs        Costs          Costs
ESR-9452988       $15,000,000     $15,000,000        $6,858,207      $0             $0

                         Summary of Questioned Cost by Explanation

                                Questioned      Internal Control     Noncompliance Finding
Category                          Costs             Finding
Cost Sharing Shortfall          $6,637,283            Yes                       Yes
Indirect Costs                     220,924            Yes                       Yes
Total Questioned Cost           $6,858,207

                  Summary of Noncompliance and Internal Control Findings

                                Noncompliance or
Findings                        Internal Control?             Material or Reportable?
Salaries and Wages                    Both                           Material
Cost Sharing                          Both                           Material
Indirect Costs                        Both                           Material
Participant Support                   Both                           Material




                                                27
                             FRESNO UNIFIED SCHOOL DISTRICT
                              NOTES TO FINANCIAL SCHEDULES
                           SEPTEMBER 1, 1995, TO AUGUST 31, 2000

1.      Summary of Significant Accounting Policies

Accounting Basis

The accompanying financial schedules have been prepared in conformity with National Science
Foundation (NSF) instructions. Schedule A has been prepared from the reports submitted to
NSF. The basis of accounting utilized in preparation of these reports differs from generally
accepted accounting principles. The following information summarizes these differences:

     A. Equity

        Under award terms, all funds not expended according to the award agreement and budget
        at the end of the award period are to be returned to NSF. Therefore, an awardee does not
        maintain any equity in the award, and any excess of cash received from NSF over final
        expenditures is due back to NSF.

     B. Equipment

        Equipment purchases were not provided for in the NSF award.

     C. Inventory

        Minor materials and supplies are charged to expense during the period of purchase. As a
        result, no inventory is recognized for these items in the financial schedule.

2.      Income Taxes

FUSD is a local governmental entity and is exempt from income taxes under the Internal
Revenue Code.




                                               28
3.     NSF Cost Sharing and Matching


As set forth in the grant award, the approved cost sharing was as follows:

           Cost Sharing      National Science Foundation       Total Project Budget

           $12,229,578                 $15,000,000                  $27,229,578

4.     Indirect Cost Rates

       •       Type of rate authorized for award: Predetermined fixed rate of 5 percent.

       •       Period of rate: September 1, 1995, to August 31, 2000.

       •       Indirect cost rate used to claim cost: Based on total direct costs less participant
               support costs.




                                                29
         APPENDIX A


AWARDEE’S COMMENTS TO REPORT
                             FRESNO UNIFIED SCHOOL DISTRICT
                                   2309 TULARE STREET
                              FRESNO, CALIFORNIA 93721-2287

                     NATIONAL SCIENCE FOUNDATION AWARD NUMBER
                                    ESR-9452988

                                   FINANCIAL AUDIT OF
                                FINANCIAL SCHEDULES AND
                             INDEPENDENT AUDITORS’ REPORTS

                 FOR THE PERIOD SEPTEMBER 1, 1995, TO AUGUST 31, 2000




                            Written Comments on the Findings
                        (Received Draft Report September 20, 2004)




Prepared by:

Fresno Unified School District
Fiscal Services
Instruction Division
September 2004




                                                                        2
Preface

The National Science Foundation (NSF) awarded cooperative agreement No.ESR-9452988 to
the Fresno Unified School District (FUSD) for the period of September 1, 1995 to August 31,
200 in the amount of $15 million.

In the Draft for Discussion purposes only, the auditors noted the following findings:

   1.   Lack of adequate supporting documentation for salary and fringe benefit costs
   2.   Lack of a system to identify, account for, monitor and report cost sharing
   3.   Lack of appropriate guidance resulted in excessive indirect costs claimed
   4.   Lack of a system to track, document, and monitor the use of participant support funds

FUSD submitted the required annual reports, attended all PI/PD meetings, and hosted reverse
site visits for the cognizant NSF officer and team members. The content of these interactive
functions never addressed acceptable accounting and documentation practices for NSF awards.
In the first three years of the award, FUSD was assigned different cognizant officers and
compliant procedures were never discussed. Communication was mostly spent on learning about
our proposal and how the implementation was effecting student achievement. Reviews by NSF
were conducted regarding the six drivers of the NSF evaluation process.

As a first time NSF award recipient, we were not aware of the importance of these issues. As
time passed and leadership changed both with NSF and in our district, new personnel focused
simply on continuing what had been done before, as they learned their duties and roles, thus
increasing our inability to catch these errors.

FUSD has implemented procedures in each of the findings. FUSD staff has been trained and
follows the appropriate procedures. Supervisors are responsible for employee’s adherence to
described procedures.




                                                2
Finding No. 1. Lack of adequate supporting documentation for salary and fringe benefit costs.

Recommendation No. 1: We recommend that the NSF Directors for the Division of Institution
and Award Support (DIAS) and the Division of Grants and Agreements (DGA) direct FUSD to
immediately implement policies and procedures to ensure that employees maintain semi-annual
certifications and monthly personnel activity reports to support salaries and wages charged to
NSF awards as required by OMB Circular A-87 Attachment B, Section 11h.

District’s Comments

Each pay period, FUSD’s accounting system allocated payroll charges to funding sources (grants
or other cost objectives) based on personnel requisition forms initiated at the time the employee
was first assigned to work on the NSF award. The requisition forms were submitted to the
Human Resources Department by each employee’s supervisor. The requisition form detailed the
percentage of salary costs to be allocated to each funding source based on the supervisor’s
estimate of the percentage of time the employee was expected to work on each grant or cost
activity. A supervisor would change an employee’s funding percentage if he or she deemed it
necessary. Accordingly, this change would be initiated via a personnel requisition.

Former and current FUSD staff were interviewed and provided signature statements to Cotton &
Company regarding effort charged to the NSF award. Both interviews and statements support the
validity and the appropriateness of the costs charged to NSF Award No. ESR-9452988.

FUSD implemented the following procedures. NSF staff has been trained to follow procedures.
Time Accounting Record reports are available for our current NSF award beginning August
2000.

Written procedures to track direct labor effort spent on NSF awards and all federal funds:

   1. All employees involved in the grant keep Time Accounting Record reports. This is true
      for those charged to the project and for those used for cost share.
   2. Employees record the percentage of time spent on the project. Employees who are split
      funded record the amount of time spent to each project.
   3. Time Accounting Record reports are given to the Budget Manager and are entered in the
      computer to ensure the percentages are accurate for time required to the project.
   4. Time Accounting Record reports are signed by the appropriate supervisors and returned
      to the Budget Manager to be filed for each fiscal year of the project.
   5. The portion of the employee’s salary, which is charged to the cost share of the NSF
      program, is charged to the budget: XXXXXXXXXXXXX. The activity code XXX has
      been designated as the District’s cost share for NSF/USI/USP.




                                                3
Finding No. 2. Lack of a system to identify, account for, monitor and report cost sharing.

Recommendation No. 2: We recommend that the NSF Directors of DIAS and DGA direct FUSD
to establish a system to identify, account for, monitor and report cost sharing expenses and, at a
minimum, ensure that:

Cost sharing is separately tracked, accounted for, and verifiable in FUSD’s records; is not
included as contributions for any other federally-assisted project or program; is necessary and
reasonable for proper and efficient accomplishment of project and program objectives, is
allowable under applicable cost principles; and is not paid by the federal government under
another award;

       All awards with cost sharing requirements are immediately identified and reported to the
       Accounting Department;
       Costs sharing costs incurred and claimed are appropriately reviewed, approved, and
       recorded, as they occur to establish that they are reasonable, allocable, and allowable;
       Cost sharing records are adequately maintained and documented;
       Cost sharing certifications are submitted to NSF in a complete, accurate and timely
       manner; and
       Cost sharing policies and procedures are developed in writing consistent with NSF
       requirements, and communicated to appropriate FUSD staff.

District Comments

Lack of a system to identify and account for cost sharing

The FUSD USI funded proposal referenced the improvement of mathematics, science and
technology facilities as local initiatives. The use of $15 million bond earmarked for
improvements were listed as cost sharing funds on the summary page as well as on pages 5 and
17 of the funded proposal. These funds were also referenced in the cost share signature page sent
to NSF 5/14/96. In addition, NSF received a letter dated June 25, 1995 describing the use of $15
million in capital improvement bond money for cost sharing. This letter was addressed to
XXXXXXXXXXXX NSF Program Officer and sent under signature by FUSD’s
XXXXXXXXXXXXXX and FUSD’s XXXXXXXXXXXXXXXXXXXXX. FUSD was never
directed to implement the proposal differently than as written. After a successful bond election,
the FUSD Board of Education honored the commitment to the program to use this money as cost
sharing funds as stated in the funded proposal. Documents were provided to the auditors
illustrating the science facilities expenditures. FUSD acted in good faith to the funded proposal
and was never directed this action was not allowed for cost share.

Cost Share Certifications Were Not Properly Submitted to NSF

FUSD used the funding cycles to submit the cost share reports. NSF accepted these reports and
never informed FUSD that submission was not sufficient. Funding for year 1 was for 1995-1996
(12 months).    FUSD submitted Year 1 cost sharing on 5/14/96 under signature of
XXXXXXXXXX. Funding for year 2 was for 1996-1997 (12 months). FUSD submitted Year 2
                                                4
cost share on 5/8/97 under signature of XXXXXXXXXX. Funding for Years 3, 4, and 5 came in
2 18-month installments. FUSD submitted a 3rd report on 3/11/99 for 18 months of cost share
under the signature of XXXXXXXXXX. Copies of three cost sharing reports were provided to
Cotton & Company representatives during their fieldwork visits.

As a result of added support from NSF for our current NSF award, FUSD receives annual
reminders of the certification’s due date. FUSD has been submitting this certification in a timely
manner.

Beginning fiscal year 2003, FUSD implemented the following procedures. FUSD staff has been
trained to follow these procedures. Cost share submission continues to be submitted on an
annual basis to the cognizant NSF officer.

Written procedures for cost sharing requirements for NSF awards and all other awards with cost
sharing requirements:

   1. The Budget Manager submits a B20 form, award letter, and other documentation to
       Fiscal Services.
   2. The Financial Analyst and the Budget Manger compile the necessary object lines (i.e.
       salaries, benefits, etc.) needed to administer the general operation of the program.
   3. The Financial Analyst read the award letter and other documentation to determine the
       program’s allowable costs and cost sharing requirements.
   4. If the program has a cost share requirement, the Financial Analyst will work with the
       Budget Manager to identify the budget representing the cost share.
   5. If the cost share is a salary, a personnel requisition will be submitted to Human
       Resources to change the funding percentage of the employee to the budget containing the
       District’s cost share.
   6. All cost sharing requirements are coded to an activity code designated for the program.
   7. For example, XXXXXXXXXX regular salary is charged to the budget:
       XXXXXXXXXXXXX.
   8. The portion of the Superintendent’s salary, which is charged to the cost share of the NSF
       program, is charged to the budget: XXXXXXXXXXXXX. The activity code XXX has
       been designated as the District’s cost share for NSF/USI/USP.
   9. The Financial Analyst and the Budget Manager will monitor to ensure the expenses,
       include in the cost share, are properly coded to the appropriate budget.
   10. At the end of the fiscal year, the Financial Analyst and Budget Manager will ensure the
       District has met the required cost share.
   11. If the cost share is materials that directly support of the program, then the activity and
       function codes are charged to the designated cost sharing code.




                                                5
Finding No. 3. Lack of appropriate guidance resulted in excessive indirect costs claimed.

Recommendation No. 3: We recommend that the NSF Directors of DIAS and DGA direct FUSD
to develop and implement written policies and procedures to ensure that appropriate personnel
are made aware of accurate indirect cost terms of all NSF awards, and that indirect costs claimed
are calculated in accordance with those terms.

District Comments

Historically, the indirect rate for the district has been less that 5 percent. However, with time the
rate eventually increased to over 5 percent. Changes in the department staff at all levels may
have played a role in applying the incorrect indirect rate.

Upon learning this error, FUSD immediately implemented the following procedures for the NSF
award. FUSD staff has been trained to follow the procedures.

Procedures for indirect cost computation for NSF awards:

   1. At the end of fiscal year, Financial Analyst ensures that the expenditures in the District’s
      mainframe are complete for the NSF Program.
   2. The Financial Analyst will inquire to the NSF staff the amount of the expenditures to be
      excluded from the computation of indirect cost. This amount is addition to the
      expenditures for capital outlay (if any), which are excluded from the calculation.
   3. NSF staff will send Fiscal Services supporting documentation for the amount they are
      requesting to be excluded from the computation of indirect cost. The supporting
      documentation should include where the participant costs were charged in the NSF
      budget.
   4. After review of the documentation, the Financial Analyst will decrease the total expenses
      for the NSF grant in the database used to compile the fiscal year end information for the
      District’s grants and entitlements. The database is used to report the revenues and
      expenditures as well as calculate accounts receivable, deferred revenue, accounts
      payable, and indirect cost.
   5. The final step is to produce a journal voucher document that will debit the NSF’s
      programs indirect cost object – 7315 and credit the revenue in the District’s General
      Fund.




                                                 6
Finding No. 4. Lack of a system to track, document, and monitor the use of participant support
funds.

Recommendation No. 4: We recommend that the NSF Directors of DIAS and DGA direct FUSD
to establish a system and appropriate policies and procedures to track, document and ensure the
allowability of participant support costs and ensure that all FUSD staff working on NSF awards
are adequately trained and made aware of the federal and NSF requirements for seeking NSF
approval to spend participant support funds for other purposes.

District Comments

During the award period, the participant support costs were identified by the District’s
accounting system. These amounts are categorized in the object code of the budget. The USI
office staff kept back up information to support expenditures identified as participant support
costs, because there is not a specific object code for participant support. Excluding participant
support is not consistent with how procedures were conducted. Common practice for FUSD is to
exclude capital outlay only from the indirect cost calculation for most grants and entitlements.
As a first time NSF award recipient, cognizant NSF program officers did not advise us of the
importance of this issue.

Upon learning this error, FUSD immediately implemented the following procedures. FUSD staff
has been trained on these procedures.

Procedures for claiming participant support costs for NSF awards:

   1. A request for supplies, conference registration, other services, etc. is put into the system
      by a number automatically by the District’s accounting system.
   2. The Budget Manager will enter the RX, PD, PG, or SR document number into the
      USI/USP database along with the vendor name, amount and description of what the order
      is for.
   3. The Budget Manager checks to see where it fits in the NSF Form 1030 and includes the
      item letter and number. This includes travel, publication of materials etc.
   4. For example, when the item is a supplemental/extra pay contract, the Budget Manager
      places it under F1 for Participant Stipends.
   5. During May and June, the Budget Manager checks to see what items are still open that
      need to be paid. Once that is done, a review of the F180 screens is made to ensure the
      total amounts are correct.
   6. The Budget Manager then sorts the items by the NSF Form1030 lines to find out what
      has been expended for all participant costs.
   7. The Budget Manager then reports the amounts to the Budget Analyst by object lines. The
      amount of participant costs is subtracted from the amount of expenditures done
      throughout the year and the indirect is then calculated.




                                                7
        HOW TO CONTACT
THE OFFICE OF INSPECTOR GENERAL

     Internet
     www.oig.nsf.gov

     Email Hotline
     oig@nsf.gov

     Telephone
     703-292-9158

     Toll-Free Anonymous Hotline
     1-800-428-2189

     Fax
     703-292-9158

     Mail
     Office of Inspector General
     National Science Foundation
     4201 Wilson Blvd., Suite 1135
     Arlington, VA 22230
